Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




        MEDICARE AND FEHB
         PAYMENT RATES
   FOR HOME OXYGEN EQUIPMENT




                    Inspector General

                       March 2005
                     OEI-09-03-00160
                        (Revised)
               Office of Inspector General
                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components.

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆   E X E C U T I V E                            S U M M A R Y


                  OBJECTIVE
                  To compare Medicare fee schedule allowances and median Federal
                  Employees Health Benefits (FEHB) plans’ payment rates for home
                  oxygen equipment in 2002.


                  BACKGROUND
                  We released a report entitled Medicare Payment Rates for Home
                  Oxygen Equipment (OEI-09-03-00160) in September 2004, which
                  provided CMS with a comparison of Medicare payments with FEHB
                  plan prices. This report, which supersedes the September 2004 report,
                  provides an updated comparison between Medicare fee schedule
                  allowances and median FEHB payment rates for home oxygen
                  equipment and contents.

                  Medicare covers oxygen equipment and supplies under its durable
                  medical equipment benefit (Part B). Oxygen equipment includes oxygen
                  concentrators (stationary equipment that concentrates the oxygen in
                  room air), stationary liquid and gaseous oxygen systems, and portable
                  liquid and gaseous systems. These five items accounted for 99.9 percent
                  of the $2.2 billion Medicare allowed for home oxygen equipment in 2002.

                  To obtain and analyze FEHB payment rates, we requested information
                  concerning home oxygen rates and utilization from the 198 plans that
                  the Office of Personnel Management identified as providing FEHB
                  coverage in 2002. We received responses from 185 plans. For our
                  analysis, we grouped the plans by corporate ownership into
                  91 consolidated plans. Of the 91 plans, 56 plans provided sufficient
                  information about at least 1 of the 5 home oxygen equipment items to be
                  included in our analysis.


                  FINDING
                  FEHB plans’ median payment rates are lower than Medicare fee
                  schedule allowances for home oxygen equipment and contents.
                  FEHB plans’ median payment rates are 12.4 percent lower for
                  stationary equipment and 10.8 percent lower for portable equipment.
                  The greatest difference between the median FEHB payment rate and
                  the median Medicare fee schedule allowance is for oxygen concentrators.




OEI-09-03-00160   MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   i
E X E C U T I V E                   S U        M M A R Y




                   CONCLUSION
                   Section 302(c)(2) of the Medicare Prescription Drug, Improvement, and
                   Modernization Act of 2003 (MMA) requires reductions in payments for
                   oxygen equipment in 2005 based on the Office of Inspector General’s
                   (OIG) analysis of median FEHB prices. Subsequent to the issuance of a
                   report we released in September 2004, questions were raised about the
                   inclusion of oxygen contents for stationary and portable equipment in
                   our FEHB payment rates. As a result, we conducted additional work to
                   clarify the data in the September 2004 report. This report provides an
                   updated comparison between Medicare fee schedule allowances and
                   median FEHB payment rates for home oxygen equipment.




 OEI-09-03-00160   MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   ii
∆   T A B L E           O F             C O N T E N T S



         EXECUTIVE SUMMARY ......................................... i


         INTRODUCTION ................................................ 1



         FINDING ......................................................... 8
                    FEHB rates compared to Medicare . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
∆   I N T R O D U C T I O N


                  OBJECTIVE
                  To compare Medicare fee schedule allowances and median Federal
                  Employees Health Benefits (FEHB) plans’ payment rates for home
                  oxygen equipment in 2002.


                  BACKGROUND
                  We released a report entitled Medicare Payment Rates for Home
                  Oxygen Equipment (OEI-09-03-00160) in September 2004, which
                  provided CMS with a comparison of Medicare payments with FEHB
                  plan prices. This report, which supersedes the September 2004 report,
                  provides an updated comparison between Medicare fee schedule
                  allowances and median FEHB payment rates for home oxygen
                  equipment and contents.
                  Medicare Coverage, Reimbursement Policy, and Payments
                  Medicare Part B covers home oxygen equipment and supplies under its
                  durable medical equipment (DME) benefit (Section 1832(a)(2)(G) of the
                  Social Security Act). DME is defined as equipment that can withstand
                  repeated use, is primarily used to serve a medical purpose, and is
                  appropriate for use in a patient’s home (42 CFR § 414.202). Oxygen
                  therapy is covered for patients with significant hypoxemia, a shortage of
                  oxygen in the blood, who meet specific medical criteria (CMS Coverage
                  Issues Manual, DME: Home Use of Oxygen, 60-4).

                  Medicare covers three types of oxygen delivery systems, which are
                  payable for rental only: (1) oxygen concentrators, which are electrically
                  powered, stationary machines that deliver high concentrations of
                  oxygen by extracting it from room air; (2) stationary or portable liquid
                  oxygen systems, which use oxygen stored as a very cold liquid in
                  cylinders and tanks; and (3) stationary or portable gaseous oxygen
                  systems, which administer compressed oxygen directly from cylinders
                  (CMS Coverage Issues Manual, DME: Home Use of Oxygen, 60-4).

                  Medicare reimburses suppliers for oxygen equipment based on monthly
                  fee schedule allowances that vary by State. These monthly allowances
                  cover the oxygen equipment, oxygen contents including all refills,
                  equipment setup and maintenance, accessories, and patient education.
                  Medicare includes the contents for both stationary and portable
                  equipment in the fee schedule allowances for stationary equipment.
                  Medicare fee schedules for home oxygen equipment are modality-


OEI-09-03-00160   MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   1
I N T R O D        U C T        I O N


                    neutral. That is, in a given State, there is one rate for all stationary
                    systems and one rate for all portable systems.

                    As shown in Table 1 below, five home oxygen items accounted for
                    99.9 percent of the $2.2 billion Medicare allowed for home oxygen
                    equipment in 2002. Oxygen concentrators represented the largest
                    expenditure at $1.8 billion, or 83.2 percent of Medicare spending.



                      Table 1. Five Oxygen Items/Codes as a Percentage of Total Medicare
                      Part B Allowance for Oxygen Equipment and Supplies in Calendar
                      Year 2002

                                                                                      Allowed Amount        Percentage of
                         Code                          Description
                                                                                           in 2002         Oxygen Spending

                         E1390            Oxygen concentrator                               $1.8 billion       83.2%

                                          Portable gaseous oxygen
                         E0431                                                             $212 million         9.6%
                                          system
                                          Stationary liquid oxygen
                         E0439                                                             $128 million         5.8%
                                          system

                         E0434            Portable liquid oxygen system                     $26 million         1.2%

                         E0424            Stationary gaseous system                          $2 million         0.1%

                                                Total                                      $2.2 billion        99.9%

                    Source: Medicare National Claims History 100 percent of DME claims, 2002


                    Medicare Prescription Drug, Improvement, and Modernization Act (MMA)
                    Section 302(c)(2) of MMA requires reductions in payments for oxygen
                    equipment in 2005 based on the Office of Inspector General’s (OIG)
                    analysis of median FEHB prices for this equipment. The MMA also
                    freezes payments for home oxygen equipment from 2005 through 2008
                    and establishes competitive bidding programs for durable medical
                    equipment beginning in 2007.
                    Prior Inspector General Work
                    Previous OIG studies have highlighted excessive Medicare spending for
                    DME in general and oxygen equipment specifically. In 2002, OIG
                    compared Medicare payments for 16 DME items, excluding oxygen
                    equipment, to reimbursement by other public and private payers. OIG
                    projected savings ranging from $84 million to $958 million for these
                    16 items, depending on how much Medicare lowered reimbursement.


 OEI-09-03-00160    MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT                              2
I N T R O D        U C T       I O N


                    In 1991, OIG compared amounts allowed by Medicare for rental of
                    oxygen concentrators to the amounts paid by the Department of
                    Veterans Affairs. OIG found that Medicare-allowed amounts were more
                    than twice the amount that the Department of Veterans Affairs paid for
                    concentrators.


                    METHODOLOGY
                    Subsequent to the issuance of the September report, questions were
                    raised about the inclusion of oxygen contents for stationary and portable
                    equipment in the FEHB rates. To ascertain if plans had included
                    contents in their rates, we conducted a followup survey with all of the
                    plans that were included in our original analysis as well as some plans
                    for which information had been unavailable or unusable for the
                    September report. The findings of this report reflect the results of that
                    followup survey. We relied on the home oxygen payment rates provided
                    to us by the FEHB plans.

                    To compare median FEHB rates to median Medicare fee schedule
                    amounts for the September report, we (1) identified FEHB plans to use
                    in our analysis and sent them a mail survey, (2) determined if we could
                    use the information provided in each plan’s survey response for our
                    median comparison, and (3) calculated the plan payment rates for each
                    of the five home oxygen items (oxygen concentrators, stationary liquid
                    systems, portable liquid systems, stationary gaseous systems, and
                    portable gaseous systems).

                    For the followup survey and analysis, we determined if each plan’s rate
                    for stationary equipment included portable and stationary contents and
                    adjusted the plan payment rates accordingly. The following paragraphs
                    describe the process we used for each step.
                    Initial Identification and Survey of FEHB Plans
                    The Office of Personnel Management (OPM), which oversees the FEHB
                    program, provided us with a list of 198 health plans participating in the
                    program in 2002. We sent mail surveys to each of these 198 OPM-
                    identified health plans requesting the rates they paid for oxygen
                    concentrators, stationary liquid systems, portable liquid systems, and
                    portable gaseous systems. Pursuant to a request from CMS, we
                    subsequently collected information about stationary gaseous systems.

                    On reviewing the responses, we discovered that a number of the plans
                    listed separately by OPM were actually owned by common corporate
                    entities. While some of these corporate entities were able to provide

 OEI-09-03-00160    MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   3
I N T R O D        U C T       I O N


                    rate information for each of their components, others could provide
                    information only for the corporate entity as a whole. To maintain
                    consistency in our analysis, we consolidated plans under their corporate
                    ownership when they (1) did not have overlapping service areas and
                    (2) either had the same company name and contact information or told
                    us they were part of a larger corporation. When we use the term “plans”
                    in this report, we are referring to the consolidated plans described here,
                    not the OPM-identified health plans.
                    Determining Usability of Plan Responses
                    In reviewing the original responses, we found that we had to exclude a
                    number of plans from our analysis because they either could not provide
                    rate information or we could not compare their rates with Medicare.
                    Some, despite being listed by OPM, indicated they did not participate in
                    FEHB in 2002. Others participated, but did not offer a home oxygen
                    benefit. Several plans paid suppliers capitated rates that included
                    home oxygen equipment and supplies. Capitated rates cannot be
                    compared to Medicare’s fee schedule because they are predetermined
                    monthly amounts paid to suppliers for a range of equipment and
                    supplies while Medicare pays suppliers on a per-claim basis. A number
                    of other plans had capped rental policies for their home oxygen benefit,
                    which also are not comparable to Medicare. Plans with capped rental
                    policies cease monthly rental payments once the sum of these payments
                    for a particular member reaches the purchase price of the item.
                    Medicare, on the other hand, continues to make monthly rental
                    payments as long as the item is medically necessary.

                    Apart from the categorical exclusions described above, a number of
                    other plans provided rate information that seemed comparable to
                    Medicare, but that we could not use for a variety of reasons. For
                    example, some of these plans provided a range of rates they might pay,
                    while others gave “approximate” or “model” rates. We were able to
                    include some of these in the followup survey by obtaining claims
                    information that allowed us to calculate an average monthly payment
                    for at least one item. We did not ask for this information in the original
                    survey. In total, we received usable information for at least 1 home
                    oxygen item from 13 plans that we had not included in the original
                    analysis.

                    A few plans in the original analysis provided additional information as
                    part of the followup that invalidated the rates previously provided. For
                    example, two plans used in the original analysis told us during the


 OEI-09-03-00160    MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   4
I N T R O D        U C T        I O N


                    followup that they were not, in fact, providing benefits to FEHB
                    members in 2002. The rates they had originally provided came from
                    another line of commercial business in one case, and from a Medicaid
                    product in the other. In total, eight plans included in the original study
                    were excluded in the final analysis because of information they provided
                    in the followup. The following table compares the results of our
                    consolidations and exclusions for the September report and this report.


                      Table 2. Plans Used in Our Original and Followup Analyses

                                             Category                                Original Analysis     Followup Analysis

                      OPM-identified Plans Responding to Survey                                   184                    185

                      Consolidated Plans Responding to Survey                                      90                     91

                        Capitated Payments                                                          2                      5

                        No Oxygen Benefit                                                           1                      1

                        Not 2002 FEHB Plan                                                          1                      3

                        Capped Rental                                                              14                     15

                        Other Unusable                                                             21                     11

                      Plans Used for Analysis (for at least 1 item)                                51                     56

                    Source: Office of Inspector General analysis of collected information, 2004 and 2005


                    Calculation of Plan Payment Rates
                    Having established which rates from which plans were usable, we then
                    calculated the plan payment rate to use in our analysis for each plan
                    and oxygen item. If a plan provided a single rate for an item, we used
                    that rate as the plan payment rate for that item. If a plan provided two
                    or more rates (for example, a different rate in each of three coverage
                    areas), we used the median of distinct rates as the plan payment rate.
                    As mentioned above, some plans could not provide distinct rates for
                    some items, but could provide claims information. In such cases, we
                    used the data provided to calculate the average monthly rental
                    allowance for that plan and item, which we used as the plan payment
                    rate. Specifically, we requested that such plans provide us the total
                    number of rental months for the item in 2002 and the associated
                    allowed amount. We then divided the total allowed amount by the total
                    rental months to arrive at the average monthly rental allowance.


 OEI-09-03-00160    MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT                                5
I N T R O D        U C T       I O N


                    Many plans had usable plan payment rates for some, but not all, of the
                    oxygen items in the study. Therefore, the number of plan payment
                    rates we used to calculate the median FEHB rate for any particular
                    item is always smaller than the total number of plans used in our
                    analysis.
                    Establishing if Contents Are Included and Adjusting Rates
                    As part of the followup survey, we asked plans if they included oxygen
                    contents in their payment rates for each of the five items. For
                    stationary equipment, we asked if the rates included contents for both
                    the stationary system itself and any portable systems that were rented
                    simultaneously. If a plan indicated that the rates they provided did not
                    include contents, we then asked for claims information for their
                    stationary oxygen equipment and portable and stationary contents.

                    For plans that paid separately for contents, we used the data that they
                    provided to determine the average (mean) amount allowed for contents
                    associated with each stationary item. We divided the total contents
                    allowance by the number of rental months for each stationary item. We
                    added this figure to the previously calculated rate to arrive at the total
                    amount allowed for stationary systems plus the contents of the
                    stationary system and any portable systems used concurrently. If a
                    plan did not pay separately for contents for a particular item (i.e., they
                    used Medicare’s reimbursement methodology), we did not calculate a
                    contents add-on for that plan and item.

                    Some plans indicated that they paid separately for oxygen contents, but
                    we were unable to obtain usable claims information from them. In
                    these cases, rather than exclude them from our analysis, we estimated a
                    contents allowance for each item through a process known as
                    imputation. Imputation is a statistical method for reducing the effect of
                    survey nonresponse by assigning estimated values to missing data
                    points. In general, these estimated values are based upon data from
                    respondents with similar characteristics to the nonrespondents. We
                    used the median contents allowance for all plans that paid separately
                    for contents for a particular item to fill in the missing values for those
                    plans that paid separately for contents (for that particular item) but
                    could not provide claims information. We used at least one imputed
                    value for 14 of the 32 plans that paid separately for contents for at least
                    one stationary oxygen item, most commonly for the contents associated
                    with stationary gaseous systems.



 OEI-09-03-00160    MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   6
I N T R O D        U C T       I O N


                    Median Calculation
                    Once we established payment rates for the plans included in our
                    analysis, we calculated the median FEHB payment rate for each oxygen
                    item. We then consolidated these into a single payment rate for
                    stationary equipment and a single payment rate for portable equipment.
                    This enabled us to compare the FEHB payment rates with Medicare’s
                    modality-neutral fee schedule allowances. To make the comparison, we
                    calculated, for each modality, the weighted mean of the median FEHB
                    payment rates, where the weights were the total Medicare 2002
                    allowance per item. We compared this with the median Medicare fee
                    schedule allowance1 for each modality to determine the percentage
                    difference between Medicare and FEHB payments for home oxygen
                    equipment.

                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




                    1 To calculate the 2002 median Medicare fee schedule allowance for each modality, we

                     computed the median allowance for all 53 geographic locations (50 States, the District of
                     Columbia, Puerto Rico, and the Virgin Islands).



 OEI-09-03-00160    MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT                  7
  ∆          F I N D I N G

   FEHB plans’ median payment rates are lower than                     Because Medicare
  Medicare fee schedule allowances for home oxygen                     reimbursement for oxygen
                                                                       systems is modality neutral
                             equipment and contents
                                                                       (i.e., one allowance for
                              stationary systems and one allowance for portable systems), we
                              calculated the difference between FEHB and Medicare payment rates
                              for all stationary systems combined and, separately, the difference
                              between FEHB and Medicare payment rates for the two portable
                              systems combined. Based on the weighted mean of median FEHB
                              payment rates, we determined that Medicare allowances are
                              12.4 percent higher for stationary systems and 10.8 percent higher for
                              portable systems. (See Table 3.) The greatest individual difference
                              between the median FEHB payment rate and the median Medicare fee
                              schedule allowance is for oxygen concentrators.2

Table 3. Comparison of Median Medicare Allowances and Median FEHB Oxygen Payment Rates for
         Five Oxygen Codes in 2002

                                                                                    Percentage                        Percentage
                                                                                    Difference          Weighted      Difference
Oxygen Code                   Median                  Median
                                                                                    Between Median      Mean of       Between
(N = Number of plans that     Medicare Fee            FEHB Oxygen
                                                                                    Medicare and        Median FEHB   Medicare and
responded)                    Schedule                Price*
                                                                                    Median FEHB         Prices        FEHB Weighted
                              Allowance
                                                                                    Price                             Mean

Stationary Home Oxygen Equipment

E1390 (N = 51)
                                  $230.17                   $201.09                      12.6%
Oxygen concentrator

E0439 (N = 46)
                                  $230.17                   $208.92                       9.2%              $201.60       12.4%
Stationary liquid system


E0424 (N = 38)
                                  $230.17                   $203.14                      11.7%
Stationary gaseous system


Portable Home Oxygen Equipment

E0434 (N = 52)
                                  $36.19                     $32.70                       9.6%
Portable liquid system
                                                                                                            $32.27        10.8%
E0431 (N = 52)
                                  $36.19                     $32.22                      11.0%
Portable gaseous system

Source: Office of Inspector General analysis of 2002 median Medicare allowances and median FEHB oxygen payment rates
* Throughout the report we use the terms “price” and “payment rate” interchangeably.



                              2 The mean is weighted based on total 2002 Medicare Part B allowances for each code.




        OEI-09-03-00160       MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT                     8
F   I N D I N G


                      Table 3 (on the previous page) provides the data that CMS needs to
                      meet the mandate of the MMA to reduce Medicare fee schedule
                      allowances in 2005 based on median FEHB prices. The third column
                      shows the median prices for the Healthcare Common Procedure Coding
                      System (HCPCS) codes in accordance with the MMA. The fifth and
                      sixth columns show similar information on a modality neutral basis.




    OEI-09-03-00160   MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   9
∆   C O N C L U S I O N




                  Section 302(c)(2) of the MMA requires reductions in payments for
                  oxygen equipment in 2005 based on the OIG’s analysis of median FEHB
                  prices. Subsequent to the issuance of a report we released in September
                  2004, questions were raised about the inclusion of oxygen contents for
                  stationary and portable equipment in our FEHB payment rates.
                  Accordingly, we conducted additional work to clarify the data in the
                  September 2004 report. This report provides an updated comparison
                  between Medicare fee schedule allowances and median FEHB payment
                  rates for home oxygen equipment.




OEI-09-03-00160   MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   10
∆   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Paul Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco Regional Office, and Deborah Harvey, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed includes:

                  Cindy Lemesh, Project Leader
                  Camille Harper, Project Leader

                  Robert Gibbons, Technical Project Leader

                  China Eng, Program Analyst

                  Scott Hutchison, Program Analyst

                  Cheryl Dotts, Program Assistant

                  Doris Jackson, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch



                  Technical Assistance

                  Barbara Tedesco, Statistician




OEI-09-03-00160   MEDICARE   AND   F E H B PAY M E N T R AT E S   FOR   HOME OXYGEN EQUIPMENT   11
